   March 07, 2005




Logistics
Implementation of Performance-
Based Logistics for the Javelin
Weapon System
(D-2005-037)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BCA                   Business Case Analysis
DASA(ILS)             Deputy Assistant Secretary of the Army (Integrated Logistics
                         Support)
DUSD(L&MR)            Deputy Under Secretary of Defense (Logistics and Materiel
                         Readiness)
EA                    Economic Analysis
JV                    Joint Venture
LCCS                  Life-Cycle Contractor Support
ODASA-CE              Office of the Deputy Assistant Secretary of the Army (Cost and
                         Economics)
PBA                   Performance-Based Agreement
PBL                   Performance-Based Logistics
PMO                   Project Management Office
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                          INSPECTOR GENERAL
                         DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 222024704



                                                                         March 7,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISTION,
                 TECHNOLOGY, AND LOGISTICS
               AUDlTOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Implementation of Performance-Based Logistics for the Javelin
         Weapon System (Report No. D-2005-037)

        We are providing this report for information and use. We considered
management comments on a draft version of this report when preparing the final report.
As a result of management comments and further discussions, we revised finding A to
clarify our intention and deleted draft Recommendation A.1. We also renumbered draft
Recommendations A.2.a. and A.2.b. to A. 1. and A.2.
        We considered management comments to be responsive and in conformance with
the requirements of D o D Directive 7650.3. Therefore, additional comments are not

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert F. F'rinzbach at (703) 604-8907 @SN 664-8907) or Mr. Keith A. Yancey at
(703) 604-8774 @SN 664-8774). See Appendix C for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:




                                   Acting Assistant Inspector General
                                  for Readiness and Logistics Support
                Department of Defense Office of Inspector General
Report No. D-2005-037                                                         March 7, 2005
   (Project No. D2004LH-0047)

                     Implementation of Performance-Based
                    Logistics for the Javelin Weapon System

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel and Government
contractors who are responsible for implementing performance-based logistics (PBL)
should read this report. This report discusses the status of PBL implementation for the
Javelin weapon system.

Background. PBL is a strategy for weapon system product support that employs the
purchase of support as an integrated performance package designed to optimize system
readiness. PBL delineates outcome performance goals of weapon systems, ensures that
responsibilities are assigned, and provides incentives for attaining those goals for the life
of the weapon system. The life-cycle management of a weapon system ensures its
reliability, supportability, and total ownership cost. PBL is the DoD-preferred approach
for providing logistics support to weapon systems.

The Defense Planning Guidance for FYs 2003 through 2007 requires that each Military
Department submit a plan that identifies its implementation schedule for applying PBL to
all new weapon systems and all Acquisition Category I and II fielded systems. As of
August 23, 2004, the Military Departments reported 257 systems, sub-systems, or
components as having implemented PBL.

The Javelin weapon system, an Acquisition Category I program, is a medium-range,
infrared-imaging, fire and forget, man-portable, antitank weapon system developed for
the Army and the Marine Corps. It is composed of a tactical round and a command
launch unit. The Javelin weapon system was designed, developed, and fabricated by the
Raytheon and Lockheed Martin Javelin Joint Venture. In July 2002, the Army reported
that PBL had been implemented for the Javelin weapon system.

Results. The Army reported a PBL strategy for the Javelin weapon system to the Under
Secretary of Defense for Acquisition, Technology, and Logistics. However, the strategy
was not fully implemented as described in the Army’s July 8, 2002, PBL implementation
schedule. As a result, the Army might not be realizing the benefits of PBL for the Javelin
weapon system, such as improved readiness and decreased maintenance cost, and might
be overstating its PBL progress. The Project Manager, Close Combat Weapon Systems
Project Office, as the project management office, should update performance-based
agreements with warfighters and modify the Javelin weapon system life-cycle contract to
incorporate provisions for incentives and penalties that would support PBL (finding A).

The project management office’s decision to award the life-cycle contractor support
contract to the Raytheon and Lockheed Martin Javelin Joint Venture was based on an
economic analysis that was unsupported and incomplete. As a result, the best alternative
for life-cycle support of the Javelin weapon system might not have been selected. The
Project Manager, Close Combat Weapon Systems Project Office should update the
economic analysis and incorporate it into a business case analysis for the Javelin weapon
system. Further, based on the revised baseline cost estimate, the project management
office should reassess logistics support strategies for the Javelin weapon system after the
Deputy Assistant Secretary of the Army (Cost and Economics) validates the business
case analysis (finding B).

The recommendations in this report, if implemented, will correct the material
management control weaknesses we identified. See the Findings section of the report for
the detailed recommendations.

Management Comments and Audit Response. The Acting Deputy Under Secretary of
Defense (Logistics and Materiel Readiness) and the Army disagreed with our draft
finding that the Javelin weapon system was incorrectly reported as PBL. After reviewing
management comments and further discussion with personnel from the Office of the
Deputy Under Secretary of Defense (Logistics and Materiel Readiness), we revised the
finding to clarify our intention and deleted the draft recommendation that the Army cease
reporting that it had implemented performance-based logistics for the Javelin weapon
system.

The Army partially concurred with our recommendation to update performance-based
agreements with warfighters and stated that the Army is developing a policy on
performance-based agreements with the intent being to allow flexibility in using several
existing documents to satisfy the performance-based agreement requirement. Once
approved, the Javelin project manager will update materiel fielding agreements as
necessary. In addition, the Army partially concurred with our recommendation to modify
the life-cycle contract for the Javelin weapon system and stated that when Javelin
program requirements require a change in the life-cycle contractor support contract, the
project management office will reevaluate incentives and penalties in the contract.

The Army partially concurred with our recommendation to update the economic analysis
and stated that the economic analysis would be updated to a business case analysis when
contract situations require it. The Army concurred with our recommendation to fully
validate the business case analysis for the Javelin weapon system and to formally
document the results and conclusions of that validation.

We considered management comments to be responsive. See the Findings section of the
report for a discussion of management comments and the Management Comments
section for the complete text of comments.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Finding
     A. Javelin Performance-Based Logistics                              4
     B. Economic Analysis                                                9

Appendixes
     A. Scope and Methodology                                           14
          Management Control Program Review                             14
     B. Prior Coverage                                                  16
     C. Report Distribution                                             18

Management Comments
     Acting Deputy Under Secretary of Defense (Logistics and Materiel
        Readiness)                                                      21
     Department of the Army                                             22
Background
           Performance-Based Logistics. Performance-based logistics (PBL) is the DoD-
           preferred approach for implementing product support. PBL is a strategy for
           weapon system product support that employs the purchase of support as an
           integrated performance package designed to bring increased levels of system
           readiness. PBL describes performance goals for weapon system readiness and
           encourages the creation of incentives for attaining those goals through clear lines
           of authority and responsibility. PBL delineates outcome performance goals of
           weapon systems, ensures that responsibilities are assigned, and provides
           incentives for attaining those goals for the overall life-cycle management of
           system reliability, supportability, and total ownership cost. The Under Secretary
           of Defense for Acquisition, Technology, and Logistics (USD[AT&L]) assigned
           the Assistant Deputy Under Secretary of Defense (Logistics Plans and Programs)
           the responsibility to provide oversight for the implementation of PBL within
           DoD.

           In September 2001, the “Quadrennial Defense Review”1mandated implementation
           of PBL and modern business systems with appropriate metrics to compress the
           supply chain, eliminate steps that were “non-value-added” steps, and improve
           readiness for major weapon systems. In Department of Defense Inspector
           General Report No. D-2004-110, “The Military Departments’ Implementation of
           Performance-Based Logistics in Support of Weapon Systems,” August 23, 2004,
           we reported that the Military Departments had 257 systems, sub-systems, or
           components reported as having implemented PBL.

           Under Secretary of Defense for Acquisition, Technology, and Logistics
           Memorandum. USD(AT&L) issued a memorandum, “Performance-Based
           Logistics,” February 13, 2002, which states that the Defense Planning Guidance
           for FYs 2003 through 2007 requires that each Military Department submit a plan
           that identifies its implementation schedule for applying PBL to all new weapon
           systems and all Acquisition Category2 I and II fielded systems. The Military
           Departments were to prepare and submit their PBL plans to USD(AT&L) by
           May 1, 2002, for review and monitoring. The Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology) submitted the Javelin PBL strategy on
           July 8, 2002.

           DoD Directive 5000.1. DoD Directive 5000.1, “The Defense Acquisition
           System,” May 12, 2003, states that “PMs [program managers] shall develop and
           implement performance-based logistics strategies that optimize total system
           availability while minimizing cost and logistics footprint.” The Directive also

1
    The Quadrennial Defense Review serves as the overall strategic planning document for DoD, as required
    by Public Law 103-62, “Government Performance and Results Act of 1993.”
2
    The acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. Acquisition Category I programs are acquisition programs with an estimated total
    expenditure for research, development, test, and evaluation of more than $365 million or procurement of
    more than $2.19 billion. Acquisition Category II programs have an estimated total expenditure for
    research, development, test, and evaluation of $365 million or less but more than $140 million or
    procurement of $2.19 billion or less but more than $660 million.



                                                      1
requires that the program manager for a system be the single point of
accountability for accomplishing program objectives for the system’s life-cycle
management, including sustainment.

Spectrum of PBL Strategies. According to the Office of the Deputy Under
Secretary of Defense (Logistics and Materiel Readiness) (DUSD[L&MR]) guide,
“Product Support for the 21st Century: A Program Manager’s Guide to Buying
Performance” (Product Support Guide), November 6, 2001, a PBL strategy seeks
to maintain the appropriate level of flexibility and agility to evolve with
technological advances and warfighters’ requirements. The strategy should be
designed to balance two major objectives: logistics support and improvements in
cost-effectiveness of logistics products and services. PBL strategies vary
depending on the age of the system, existing support infrastructure, organic
(DoD) and commercial capabilities, and legislative and regulatory constraints.
PBL strategies include assigning total system support responsibility, partnering
contractors with DoD depots, and establishing performance-based agreements
(PBAs) with operational commands and organizations (warfighters).

Javelin Weapon System. The Javelin weapon system is a medium-range,
infrared-imaging, fire and forget, man-portable, antitank weapon system
developed for the Army and the Marine Corps. It is composed of a tactical round
and a command launch unit. The command launch unit is used for battlefield
surveillance, target acquisition, missile launch, and damage assessment. The
Javelin weapon system was designed, developed, and fabricated by Raytheon and
Lockheed Martin Javelin Joint Venture (JV Contractor). Since the initial fielding
of the Javelin weapon system in 1996, the JV Contractor has been responsible for
maintenance of the Javelin weapon system through various interim contractor
support contracts. The Javelin weapon system is an Acquisition Category I
program. The project management office (PMO) for the Javelin weapon system
is the Close Combat Weapon Systems Project Office, located at the Aviation and
Missile Command, Redstone Arsenal, Huntsville, Alabama. The Program
Executive Office, Tactical Missiles, Aviation and Missile Command, provides
oversight of the PMO.

Reporting of Javelin PBL. The Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) reported to USD(AT&L) that PBL for the Javelin
weapon system had been implemented. In a memorandum to USD(AT&L),
“Performance-Based Logistics,” July 8, 2002, the Assistant Secretary stated that,
in accordance with the USD(AT&L) February 13, 2002, memorandum,
acquisition managers of all Acquisition Category I and II programs had assessed
their programs for implementation of PBL. Further, the Assistant Secretary
provided the Army’s PBL implementation schedule to USD(AT&L), which
showed that PBL for the Javelin weapon system had been implemented. The
implementation schedule also showed the PBL strategy for the Javelin weapon
system, which included integrated product support provider (such as a prime
contractor or a logistics command), PBAs with warfighters, PBAs with organic
(DoD depots) and commercial providers, partnering, and contract incentives and
penalties.




                                    2
Objectives
    Our overall audit objective was to evaluate the implementation of PBL for the
    Javelin weapon system. We also reviewed the management control program
    related to the audit objective. See Appendix A for a discussion of our scope and
    methodology and our review of the management control program. See
    Appendix B for prior coverage related to the objectives.




                                        3
                    A. Javelin Performance-Based Logistics
                    The Army reported a PBL strategy for the Javelin weapon system to
                    USD(AT&L). However, the strategy was not fully implemented because
                    PBAs were not updated to reflect warfighter requirements and
                    performance incentives and penalties were not incorporated into the life-
                    cycle contractor support (LCCS) 3 contract. As a result, the Army might
                    not be realizing the benefits of PBL for the Javelin weapon system, such
                    as improved readiness and decreased maintenance cost, and might be
                    overstating its PBL progress


Federal Acquisition Regulation
           According to Federal Acquisition Regulation Part 37.6, “Performance Based
           Contracting,” August 25, 2003, to the maximum extent possible, performance
           incentives, either positive or negative or both, are to be incorporated into a
           contract to encourage contractors to increase efficiency and maximize
           performance. Performance-based contracts describe the requirements in terms of
           results required and include measurable performance standards. Performance-
           based contracts also include incentives for superior performance and specific
           procedures for reducing payment to the contractor when services are not
           performed or do not meet contract requirements.


Reporting Performance-Based Logistics
           The Army reported a PBL strategy for the Javelin weapon system to
           USD(AT&L). The PMO first reported the Javelin weapon system as having
           implemented PBL in its FY 2002 quarterly report to the Assistant Secretary of
           the Army (Acquisition, Logistics, and Technology). The quarterly report showed
           Javelin PBL as having been implemented in 1996, which was before DoD
           established a PBL requirement. The Assistant Secretary reported in his July 8,
           2002, implementation schedule to USD(AT&L) that the Javelin weapon system
           had implemented PBL. In this schedule, the Assistant Secretary described his
           strategy for implementing PBL for the Javelin weapon system, which called for
           an integrated product support provider, PBAs with warfighters, PBAs with DoD
           depots and commercial providers, partnering arrangements, and contract
           incentives and penalties.




3
    LCCS is a method of providing all or part of a system’s logistics support by contract, with the intention of
    continuing that support throughout the system’s life cycle.



                                                        4
Implementation of Performance-Based Logistics
    The Javelin PBL strategy had not been fully implemented because PBAs had not
    been updated to reflect warfighter requirements and performance incentives and
    penalties, had not been incorporated into the LCCS contract. The implementation
    schedule that the Army provided to USD(AT&L) on July 8, 2002, reported that
    the PBL strategy for the Javelin weapon system, including PBAs with warfighters
    and contract incentives and penalties, had been implemented. As of
    August 23, 2004, the Army had not taken action to incorporate warfighters’
    requirements into a PBA and the LCCS contract did not include provisions for
    performance incentives and penalties. Therefore, the Army might not be realizing
    the benefits of PBL for the Javelin weapon system, such as improved readiness
    and decreased maintenance cost, and might be overstating its PBL progress.

    Performance-Based Agreements. The PMO had not updated PBAs with
    warfighters to reflect PBL performance goals and objectives and to establish a
    target price based on a desired level of performance. According to the Product
    Support Guide, a written performance agreement between the program manager
    and the warfighter is the centerpiece of the program manager’s overall PBL
    support strategy. Typically, a PBA identifies outcome performance goals and
    objectives, such as availability and cost, and establishes a target price based on
    the desired level of performance. Program managers and warfighters should work
    together to determine what is reasonable and attainable given the state of
    technology and resources. The Product Support Guide further states that reaching
    an understanding of what the warfighter wants in terms of performance is
    essential to the program manager’s ability to develop a meaningful support
    strategy.

    The PMO had established materiel fielding agreements for the Javelin weapon
    system with several warfighting commands, such as the U.S. Army Europe, the
    U.S. Army Forces Command, and the U.S. Army Special Operations Command.
    Those fielding agreements were established as far back as 1996, which predates
    PBL. The PMO considered those fielding agreements as the warfighter PBAs
    required for PBL implementation. However, those fielding agreements lacked
    PBL requirements such as PBL performance goals and objectives and a target
    price based on a desired level of performance. The purpose of a materiel fielding
    agreement is to document the warfighters’ concurrence of the administrative and
    logistics support concept for the fielding of a weapon system and not to set a
    target price and desired level of performance. For example, warfighter and PMO
    responsibilities in those Javelin fielding agreements included staging and shipping
    of fielding packages, conducting joint inventory and transfer of accountable
    property, and designating a point of contact. As of August 23, 2004, those
    agreements had not been updated to reflect PBL requirements, which is almost
    3 years after PBL requirements were issued in the November 6, 2001, Product
    Support Guide.

    Performance Incentives and Penalties. The LCCS contract did not contain
    provisions for performance incentives and penalties that would support PBL
    implementation and motivate the JV Contractor to attain desired levels of weapon
    system performance. Federal Acquisition Regulation Part 37.6 requires


                                         5
    performance incentives to be incorporated into contracts to encourage contractors
    to increase efficiency and maximize performance. The Product Support Guide
    states that incentives should motivate the contractor to achieve performance levels
    of the highest quality consistent with economic efficiency. The Product Support
    Guide also references the USD(AT&L) “Guide to Incentive Strategies for
    Defense Acquisitions,” January 2001, which states that establishing incentives
    provides “the necessary framework and tools with which to effectively structure
    contractual incentives to achieve overall best value as part of a successful
    business relationship.”

    On January 25, 2004, the Aviation and Missile Command awarded a 1-year,
    firm-fixed-price LCCS contract (W31P4Q-04-C-0046) to the JV Contractor for
    maintenance and repair of the Javelin weapon system. The contract had 9 option
    years. The contract included fielding, maintenance support, and training for
    Army, Army National Guard, Marine Corps, and foreign military sales customers.

    The LCCS contract requires the contractor to maintain a 90-percent operational
    readiness rate and a 10-day repair turnaround time. However, the contract does
    not contain either positive or negative performance incentives tied to those
    requirements. The preferred PBL contracting approach is to use long-term
    contracts with incentives tied to performance. Incorporating incentives and
    penalties into the LCCS contract would support PBL implementation and would
    encourage the JV Contractor to optimize performance levels for the Javelin
    weapon system. Because the PMO had not fully implemented the PBL strategy
    for the Javelin weapon system, the Army might not be realizing the benefits of
    PBL for the Javelin weapon system, such as improved readiness and decreased
    maintenance cost, and may be overstating its PBL progress.


Management Comments on the Finding and Audit Response
    Management Comments. The Acting DUSD(L&MR) and the Army disagreed
    with the draft report finding that the Javelin weapon system was incorrectly
    reported as PBL. The Acting DUSD(L&MR) and the Army stated that the
    Javelin LCCS program is considered to be a PBL program because the support
    arrangement is based on performance outcomes. See the Management Comments
    section of the report for the complete text of the comments.

    Audit Response. After reviewing management comments and further discussion
    with personnel from the Office of the DUSD(L&MR), we agreed that the Army
    was not incorrect in reporting the Javelin as having implemented PBL and revised
    finding A accordingly. We also revised finding A to reflect that the Army’s
    reported strategy for implementing PBL for the Javelin weapon system had not
    been fully implemented.




                                         6
Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of management
    comments and further discussion with personnel from the Office of the
    DUSD(L&MR) we deleted draft Recommendation A.1. and renumbered draft
    Recommendations A.2.a. and A.2.b. as A.1. and A.2., respectively. We also
    revised the finding discussion accordingly.

    A. We recommend that the Project Manager, Close Combat Weapon
    Systems Project Office:

           1. Update performance-based agreements with warfighters using the
    Javelin weapon system.

    Management Comments. The Deputy Assistant Secretary of the Army
    (Integrated Logistics Support) (DASA[ILS]) provided the Army’s comments on
    finding A. He stated in further discussion that his comments also incorporated
    comments from the Project Manager, Close Combat Weapon Systems Project
    Office. The DASA(ILS) partially concurred, stating that the Army considers
    materiel fielding agreements to be an acceptable form for a PBA and that the
    Army is developing a policy on PBAs. The intent of the policy is to allow
    flexibility in using several existing documents to satisfy the PBA requirement.
    Once the policy is approved and disseminated, the Javelin project manager will
    update materiel fielding agreements as necessary.

    Audit Response. We consider the Army comments to be responsive. We agree
    that materiel fielding agreements can be an acceptable form of a PBA. However,
    to ensure that the Javelin weapon system obtains the desired level of performance
    required by the warfighter, current materiel fielding agreements need to be
    updated or PBAs need to be developed to ensure that the requirements in the
    current LCCS contract of a 90-percent operational readiness rate meets the
    performance requirements of warfighters using the Javelin weapon system.

            2. Modify the life-cycle support contract for the Javelin weapon
    system to incorporate provisions for performance incentives and penalties
    that would support performance-based logistics and motivate the contractor
    to attain desired levels of performance for the Javelin weapon system.

    Management Comments. The DASA(ILS) partially concurred, stating that
    contract incentives and penalties are the correct mechanism to use in PBL
    contracts; however, he also stated that they are not mandatory. In addition, the
    DASA(ILS) stated that when Javelin program requirements require a change in
    the LCCS contract, the PMO will reevaluate incentives and penalties included in
    the contract. The Acting DUSD(L&MR) stated that the Army should incorporate
    incentives and penalties into the PBL arrangement, but only when it is prudent to
    do so.

    Audit Response. Although the DASA(ILS) partially concurred, we consider the
    comments to be responsive.


                                        7
                   B. Economic Analysis
                   The PMO decision to award the LCCS contract to the JV Contractor was
                   based on an economic analysis (EA) that was unsupported and incomplete.
                   The EA was unsupported and incomplete because the PMO and the Office
                   of the Deputy Assistant Secretary of the Army (Cost and Economics)
                   (ODASA-CE)4 did not adhere to requirements for preparing and validating
                   the EA. Specifically, the PMO did not ensure that the EA had a
                   development plan, had a clear audit trail, and had been updated with key
                   cost elements. Further, ODASA-CE had not fully validated the EA. As a
                   result, the best alternative for the life-cycle support of the Javelin weapon
                   system might not have been selected.


Army Economic Analysis Manual
           The Army Economic Analysis Manual (EA Manual), February 2001, states that
           the EA process is a systematic approach to identify, analyze, and compare costs
           and benefits of alternative courses of action to achieve a given set of objectives.
           The process is used to determine the most efficient and effective use of resources.
           An EA is required for all ongoing programs and must be forwarded to Army
           headquarters for approval when there is a choice between two or more
           alternatives.

           The EA Manual requires that ongoing programs be periodically assessed for their
           cost-effectiveness, which requires that the EA be regularly updated. Before
           preparing an EA, the program manager should prepare a detailed EA development
           plan and provide it to decision makers and other participants in the review and
           validation process of the EA. According to the EA Manual, all EAs require
           proper validation for currency, reasonableness, completeness, and compliance.
           EAs requiring Army headquarters approval should have a thorough validation,
           consisting of a comprehensive review of all costs and benefits, with a formally
           documented report. ODASA-CE, an agency under the Assistant Secretary of the
           Army (Financial Management and Comptroller), is the proponent for validating
           the EA.


Establishment of an Economic Analysis
           The decision to award the LCCS contract to the JV Contractor was based on an
           EA that was unsupported and incomplete. In September 2001, the PMO prepared
           the “Javelin Life Cycle Support Concept Economic Analysis” for the Program
           Executive Office, Tactical Missiles, Aviation and Missile Command. The EA
           was in response to a USD(AT&L) request to provide a plan to implement Javelin
           LCCS. The EA compared the cost of an organic (DoD) life-cycle support concept

4
    In our draft report, ODASA-CE was referred to as the Army Cost and Economic Analysis Center
    (CEAC).



                                                    8
    with the cost of a contractor life-cycle support concept for the Javelin weapon
    system. The EA compared those costs over a period of 24 years. The PMO
    concluded that the EA showed no clear winner based on total cost. In addition,
    the PMO concluded that, in all cases, an LCCS-based alternative was the lowest
    cost. On October 4, 2001, ODASA-CE signed the memo stating that it concurred
    with the EA. On March 13, 2002, the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology) approved the recommendation to
    implement LCCS. On January 25, 2004, 2 years after ODASA-CE concurred
    with the EA, an LCCS contract, based on the September 2001 EA, was awarded
    to the JV Contractor.


Economic Analysis Guidelines
    The EA was unsupported and incomplete because the PMO and ODASA-CE did
    not adhere to requirements for preparing and validating the EA. Specifically, the
    PMO did not ensure the EA had a development plan, had a clear audit trail, and
    had been updated with key cost elements. Further, ODASA-CE had not
    performed a comprehensive review of the EA supporting documentation to fully
    validate the EA.

    Economic Analysis Development Plan. The PMO did not prepare an EA
    development plan before developing the EA for the Javelin weapon system. An
    EA development plan consists of the weapon system’s mission, purpose,
    constraints, assumptions, cost elements, system description, and schedules. For a
    project of high dollar value, the EA development plan should be relatively
    detailed and should be provided to the decision maker and other participants in
    the review and validation process before the analysis is performed. PMO officials
    stated that an EA development plan was not needed because it was clear what the
    objective for the Javelin weapon system was when they compared other
    alternatives for life-cycle support. Also, because the PMO held regular briefings
    that discussed ongoing Javelin weapon system issues, personnel were fully aware
    of what the plans were. As a result of not having an EA development plan, we
    were not able to fully assess whether the PMO sufficiently accomplished the EA
    objective for the Javelin weapon system. ODASA-CE officials also stated that an
    EA development plan may have helped them in fully validating the EA.

    Audit Trail. The PMO did not maintain an adequate audit trail to support key
    cost elements in the EA. The EA Manual states that there must be sufficient
    documentation of all assumptions, costs, methodology, results, and data to enable
    a person unfamiliar with the project to arrive at the same conclusions as the
    person who prepared the EA. The acceptance of the EA depends on the
    credibility of the cost estimates; therefore, the analyst must document data
    sources, provide the derivation of all costs, and maintain a clear audit trail.
    According to the EA Manual, it is of paramount importance to maintain an
    adequate audit trail to support the EA. The Javelin PMO did not have detailed
    documentation to support cost and benefit elements of the EA. Having detailed
    documentation would have allowed us to properly assess the EA. For example,
    PMO officials regularly cited the “Automated Cost Estimating Integrated Tools”
    model for supporting documentation of the EA. The model is a system used to


                                        9
standardize and simplify the process of estimating the life-cycle costs to be
included in an EA. However, the PMO did not have the source documentation to
support cost estimates, such as overhead, used in the model. As a result, we were
not able to arrive at the same conclusion as the PMO that an LCCS-based
alternative was the lowest cost for the Javelin weapon system.

Updating the EA. The PMO did not update the EA to reflect changes that
occurred during the 2 years between when the EA was approved and when the
LCCS contract was awarded. The EA was prepared in September 2001 and
validated October 4, 2001. When the PMO awarded the LCCS contract on
January 25, 2004, the EA had not been updated. The EA Manual states that
ongoing programs must be assessed periodically for their cost-effectiveness and
that those assessments should include a comparison of actual performance with
the approved project. To do that, an update to the program’s EA is often required.
Also, the EA Manual states that the EA should include all anticipated costs
associated with each alternative over the life of the project, to include an estimate
of all future costs through implementation, operation, and disposal of a project.
According to PMO officials, the decision to proceed with LCCS was based on the
EA. However, the LCCS contract that was awarded in January 2004 included
costs that were not reflected in the EA. Costs not reflected in the EA included
JV Contractor depot relocation, technical data packages, and contractor’s profits.
For example, the depot relocation cost of $11.7 million, for the JV Contractor to
relocate its maintenance facilities from Fayetteville, North Carolina, to Los
Angeles, California, was included in the contract, but the EA had not been
updated to reflect that cost. PMO officials acknowledged that the EA should be
updated now that additional cost factors have been identified. The PMO omission
of key cost elements from the EA distorts its outcome and, as a result, the PMO
might not have chosen the most economical option for life-cycle support for the
Javelin weapon system.

Validation. Although ODASA-CE officials prepared a memorandum on
October 4, 2001, “Javelin Life Cycle Support Concept Economic Analysis,”
stating that they concurred with the EA, they did not fully validate the EA for the
Javelin weapon system. The EA Manual states that validators should ensure that
assumptions, constraints, and methodology are logical, reasonable, complete, and
well documented and that conclusions and recommendations are reasonably
supported by the analysis. ODASA-CE did not fully validate the EA because the
PMO did not prepare an EA development plan and did not provide ODASA-CE
with all key cost elements. In addition, ODASA-CE guidance on assessing the EA
was based on telephone calls and office visits by the PMO. Further, ODASA-CE
officials did not verify the underlying cost data provided by the PMO.
ODASA-CE also did not use the detailed checklist in the EA Manual that
provides validators a general guide to assist in the review and validation process.
In addition, no formal report was prepared to assess ODASA-CE objectives and
to document how ODASA-CE conclusions and recommendations were arrived at.
According to ODASA-CE personnel, their focus on assessing the EA was to
ensure that it consisted of only the necessary cost elements and that those cost
elements were accurate. Without the proper validation of the underlying data, the
conclusion regarding the overall validity of the EA cannot be supported.




                                     10
Life-Cycle Contractor Support Alternative
           The PMO prepared an EA in September 2001 and used it as the basis for choosing
           an LCCS alternative for the Javelin weapon system. The PMO awarded the
           Javelin LCCS contract to the JV Contractor on January 25, 2004. However, the
           EA was not supported by an EA development plan, did not address key cost
           elements, had not been updated, and had not been fully validated. As a result, the
           PMO might not have selected the best alternative for the life-cycle support of the
           Javelin weapon system.


Management Actions
           On January 23, 2004, USD(AT&L) issued a memorandum, “Performance Based
           Logistics Business Case Analysis,” which provides guiding principles for
           preparing a PBL business case analysis (BCA).5 A BCA is a document in which
           results from various analyses, such as the EA, are used to validate the product
           support strategy. The memorandum requires that all BCAs be based on
           warfighter-stated performance requirements that are documented in a PBA. The
           Military Departments were directed to revise their PBL BCA guidance to
           incorporate the guiding principles provided in the memorandum. A USD(AT&L)
           March 2004 memorandum, “Performance-Based Logistics and the Business Case
           Analysis,” states that strategic planning guidance requires the Services to
           complete a BCA on all new and fielded Acquisition Category I and II programs
           by September 30, 2006.

           In May 2004, the Deputy Assistant Secretary of the Army (Integrated Logistics
           Support) issued the “U.S. Army Implementation Guide: Performance-Based
           Logistics,” which requires that a BCA be prepared in implementing the PBL
           process. The guidance also states that BCAs requiring Army headquarters
           approval are to be validated by ODASA-CE. Although the Army’s guidance
           requiring that a BCA be prepared was issued in May 2004, as of August 20, 2004,
           the Army was still in the process of developing guidance on how to prepare a
           BCA. In addition, as of August 23, 2004, the Assistant Deputy Under Secretary
           of Defense (Logistics Plans and Programs) was in the process of drafting a
           revised comprehensive handbook for PBL BCAs.

           Because our review showed that the decision to award the LCCS contract to the
           JV Contractor was not fully supported by the EA or properly validated by
           ODASA-CE, the PMO should update the EA. Once updated, the EA should be
           included in the BCA that is required by September 30, 2006, and the BCA should
           be validated by ODASA-CE. The BCA can then be used as the basis to reassess
           decisions on continuing the PBL support strategy for the Javelin weapon system.


5
    A BCA is defined as a tool used to manage business process improvement activities from inception
    through implementation that identifies functional alternatives and presents economical and technical
    arguments for carrying out alternatives over the life cycle of a program to achieve stated business
    objectives or imperatives.



                                                      11
Management Comments on the Finding and Audit Response
    Management Comments. The Acting DUSD(L&MR) disagreed with the report
    finding and stated that the EA that was conducted by the program manager and
    approved by the Army Cost and Economic Analysis Center, now the
    ODASA-CE, in October 2001 was in accordance with existing DoD guidance and
    procedures for PBL that were in place at that time.

    The Deputy Assistant Secretary of the Army (Cost and Economics) also disagreed
    with the report finding that the EA was unsupported and incomplete and stated
    that his office performed a comprehensive review to fully validate the Javelin EA,
    to include conducting interviews with PMO officials and analyzing PMO
    documentation. In addition, he stated that the completion of an EA checklist and
    an EA development plan does not ensure an EA is fully validated.

    Audit Response. As stated in this report, we attempted to obtain source
    documentation from the Javelin PMO and ODASA-CE to support the costs used
    in the Automated Cost Estimating Integrated Tools model. Neither office could
    provide source documentation to support all costs used in the model, such as
    spare part unit costs, mean time between failure, and labor rates. Further, the EA
    Manual states that “it is essential to adequately document the EA [and] that there
    must be sufficient documentation of all assumptions, costs, methodology, results
    and data to enable a person unfamiliar with the project to arrive at the same
    conclusion as the person who prepares it.” The EA Manual further states that the
    EAs are subject to many levels of review, including the DoD Inspector General,
    adding: “These reviewers may not be as familiar with the EA as the analyst that
    prepared it and each will critically analyze and pass judgment on the EAs validity
    and adequacy. For this reason it is of paramount importance to maintain an
    adequate audit trail to support your conclusions. The documentation must
    provide an audit trail that permits validation of all costs and benefits.”

    Without an adequate audit trail, we were not able to arrive at the same conclusion
    about the EA as the PMO or ODASA-CE. Therefore, we could not validate the
    costs and benefits included in the EA. We agree that an EA checklist and an
    EA development plan do not ensure a fully validated EA; however, if properly
    used, those tools would have ensured that all Javelin cost estimates were
    supported by valid source documentation and that the EA was performed based
    on a clearly defined objective that was measurable, realistic, achievable, and
    results-oriented. Further, a checklist would have provided assurances that the EA
    could “stand on its own,” allow an independent reviewer to reach the same
    conclusion, and ensure supporting documentation was adequate for reviewers to
    duplicate costs and estimates used in the EA.




                                        12
Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Project Manager, Close Combat Weapon
    Systems Project Office:

           a. Update the economic analysis and incorporate it into the business
    case analysis for the Javelin weapon system.

            b. Prepare a business case analysis for the Javelin weapon system
    and, based on the results of that analysis, reassess the Javelin weapon system
    logistics support strategy.
    Management Comments. The DASA(ILS) partially concurred, stating that the
    Javelin EA was developed and approved before the establishment of Defense and
    Army guidance on BCAs. He also stated that the EA would be updated to a BCA
    when contract situations require it, but that until Army BCA guidance is
    developed, the Army would continue to use the interim guide that was prepared
    by CEAC. The Acting DUSD(L&MR) stated that the Army will be expected to
    reassess the BCA and update the EA to a BCA when situations require it.

    Audit Response. Management comments are responsive.

    B.2. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) direct the Deputy Assistant Secretary of the
    Army for Cost and Economics to fully validate the business case analysis for
    the Javelin weapon system and formally document the results and
    conclusions of that validation.

    Management Comments. The Deputy Assistant Secretary of the Army (Cost
    and Economics) concurred and stated that upon receipt of the BCA for the Javelin
    weapon system, his office will fully validate the BCA and document the results in
    accordance with established procedures.




                                       13
Appendix A. Scope and Methodology
    We performed the audit at the Close Combat Weapon Systems Project Office,
    Aviation and Missile Command, Huntsville, Alabama. We contacted personnel at
    the Office of the USD(AT&L); the Office of the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology); the Army Materiel Command; the
    Program Executive Office, Tactical Missiles; and ODASA-CE.

    We assessed the adequacy of the Close Combat Weapon Systems Project Office
    implementation of PBL by reviewing DoD and Army policies and regulations
    regarding responsibilities and procedures for implementing PBL and reviewed
    FY 2002 quarterly status reports. We also reviewed the Quadrennial Defense
    Review and DoD directives pertaining to PBL. We reviewed the adequacy of the
    EA by reviewing Army guidance and cost documents. We assessed the LCCS
    contract for PBL provisions.

    We also reviewed the Army implementation schedule for PBL and interviewed
    PMO officials on the status of implementing PBL. Additionally, we interviewed
    ODASA-CE officials to discuss the validation process for the EA and reviewed
    their October 4, 2001, memorandum that concurred with the PMO conclusion in
    the EA. Documents we reviewed were dated from April 1996 through August
    2004.

    We performed this audit from December 2003 through September 2004 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not rely on the use of computer-
    processed data to perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Weapon Systems Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    Close Combat Weapon Systems Project Office’s process for reporting PBL for
    the Javelin weapon system and the office’s procedures for supporting and
    completing the EA. We also reviewed the adequacy of management’s self-
    evaluation of those processes and procedures.




                                        14
Adequacy of Management Controls. We identified material management
control weaknesses within the Army, as defined by DoD Instruction 5010.40.
The processes and procedures used by the Army were insufficient to ensure that
PBL for the Javelin weapon system had been fully implemented and that the
Javelin EA was supported, complete, and fully validated. The recommendations,
if implemented, will correct the conditions cited. A copy of the report will be
provided to the senior official responsible for management controls in the Army.

Adequacy of Management’s Self-Evaluation. The Army did not identify the
reporting of PBL implementation and preparing and validating the EA as
assessable units and, therefore, did not identify or report the material management
control weaknesses identified by the audit.




                                    15
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    Department of Defense Inspector General (DoD IG), and the Navy have issued
    12 reports related to implementing PBL. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-04-715, “Defense Management: Opportunities to
    Enhance the Implementation of Performance-Based Logistics,” August 16, 2004

    GAO Report No. GAO-02-1049, “Contract Management: Guidance Needed for
    Using Performance-Based Service Contracting,” September 23, 2002

    GAO Report No. GAO-02-306, “Defense Logistics: Opportunities to Improve
    the Army’s and the Navy’s Decision-making Process for Weapons Systems
    Support,”
    February 28, 2002

    GAO Report No. GAO-01-618, “Defense Logistics: Air Force Lacks Data to
    Assess Contractor Logistics Support Approaches,” September 7, 2001


DoD IG
    DoD IG Report No. D-2004-110, “The Military Departments’ Implementation of
    Performance-Based Logistics in Support of Weapon Systems,” August 23, 2004

    DoD IG Report No. D-2004-021, “Effectiveness of Maintenance Work Performed
    Under Contract FA4452-01-C-0001 at Andrews Air Force Base,”
    November 19, 2003

    DoD IG Report No. D-2003-120, “F/A-18E/F Integrated Readiness Support
    Teaming Program,” August 8, 2003

    DoD IG Report No. D-2002-112, “Industrial Prime Vendor Program at the Air
    Force Air Logistics Centers,” June 20, 2002

    DoD IG Report No. D-2000-180, “Commercial Contract for Total Logistics
    Support of Aircraft Auxiliary Power Units,” August 31, 2000




                                       16
Navy
       Naval Audit Service Report No. N2003-0050, “Contractor Logistics Support
       Oversight,” May 15, 2003

       Naval Audit Service Report No. N2003-0024, “Contractor Logistics Support at
       the Naval Air Systems Command,” January 29, 2003

       Naval Audit Service Report No. N2002-0069, “Contractor Logistics Support at
       the Space and Naval Warfare Systems Command,” August 8, 2002




                                         17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Acting Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Logistics Plans and Programs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Deputy Assistant Secretary of the Army (Integrated Logistics Support)
Assistant Secretary of the Army (Financial Management and Comptroller)
  Deputy Assistant Secretary of the Army (Cost and Economics)
Auditor General, Department of the Army
Commander, Aviation and Missile Command
  Commander, Program Executive Office, Tactical Missiles
      Project Manager, Close Combat Weapon Systems Project Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                          18
Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Acting Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) Comments
                                              Final Report
                                               Reference




                                              Revised




                      21
Department of the Army Comments




                    22
     Final Report
      Reference




     Deleted




     Renumbered
     as
     Recommen-
     dation A.1.




     Renumbered
     as
     Recommen-
     dation A.2.




23
Final Report
 Reference




CEAC
changed to
ODASA-CE




               24
25
26
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Michael A. Joseph
Robert F. Prinzbach
Keith A. Yancey
Bernard M. Baranosky
Marc E. Avers
Gregory S. Fulford
Travis R. Schenck
Joseph Bowman
Jennifer L. Trieschman
Elizabeth N. Shifflett
